HHS/OIG, Audit - "Review of East Jefferson General Hospitals Reported
Fiscal Year 2005 Wage Data," (A-01-08-00515)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of East Jefferson General Hospitals Reported Fiscal Year 2005 Wage Data," (A-01-08-00515)
June 16, 2008
Complete
Text of Report is available in PDF format (1.05 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
East Jefferson General Hospital (the Hospital) overstated
fringe benefit costs by almost $4.5 million ($4.9 million after factoring in
overhead) in its fiscal year (FY) 2005 Medicare cost report.  Under the
inpatient prospective payment system for acute-care hospitals, CMS adjusts the
Medicare base rate paid to participating hospitals by the wage index applicable
to the statistical area in which hospitals are located.  CMS calculates wage
indexes based on hospitals wage data reported 4 years earlier.  Our correction
of the Hospitals error decreased the average hourly wage rate from $28.99 to
$27.85.  If the Hospital does not revise the wage data in its FY 2005 cost
report, the FY 2009 wage index for the Hospitals statistical area will be
overstated, which will result in overpayments to all of the hospitals that use
this wage index.
We recommended that the
Hospital submit a revised FY 2005 Medicare cost report to the fiscal
intermediary and implement procedural improvements.  The Hospital agreed with
our finding.